 DOE F 1325.8
 (08-93)
'United States Government                                                               Department of Energy


 Memorandum
           DATE:    September 28, 2007                                          Audit Report No.: OAS-L-07-26
     REPLY TO
     ATTN OF:       IG-34 (A07TG029)
     SUBJECT:       Report on "Department's Implementation of the Strategic Integrated Procurement
                    Enterprise System - Transition Planning, Interfaces, and Testing"
           TO:      Chief Financial Officer, CF-1


                    INTRODUCTION AND OBJECTIVE

                    The Strategic Integrated Procurement Enterprise System (STRIPES) initiative is an
                   important component of the Department of Energy's (Department or DOE)
                   I-MANAGE program. Consistent with the President's Management Agenda and laws
                   such as the E-Government Act, the STRIPES project has been undertaken to improve
                   the efficiency and effectiveness of awarding and administering acquisition instruments
                   - including managing and operating contracts, interagency and blanket purchase
                   agreements, and purchase and task orders. The initiative will ultimately replace and/or
                   consolidate as many as 30 procurement-related systems across the Department.

                    Based on a request by project officials and previous difficulties encountered during
                    deployment of the Department's corporate financial management system, we elected to
                   perform a review of the STRIPES planning and system development effort. To
                   accommodate the ongoing effort and provide feedback prior to the planned January
                   2008 system implementation date, we adopted a three-phased approach. In successive
                   order, we plan to review and report on: 1) transition planning, system interfaces, and
                   testing; 2) overall project planning; and, 3) security. This report, the first in the series,
                   addresses whether ongoing efforts in the areas of transition planning, interfaces, and
                   testing are satisfying Federal and Department system development requirements,
                   goals, and mission needs.

                   CONCLUSION AND OBSERVATIONS

                   For the most part, transition planning, interfaces, and testing for STRIPES satisfied
                   Federal and Department system development requirements, goals, and mission needs.
                   Specifically, a transition plan had been developed and key system interfaces had been
                   identified. A testing strategy had also been designed and the acceptance test phase is
                   currently underway. Our review, however, disclosed several opportunities to improve
                   the development process and increase the likelihood that the effort will ultimately be
                   successful.
 Although required by the Department's project management directive, the STRIPES
 transition plan did not include information on system documentation, interfaces, and
 draft operating schedules. Also, an unresolved issue related to the accuracy of vendor
 information to be verified during the interface with the Department's corporate
 financial system - the Standard Accounting and Reporting System (STARS) - existed.
 Schedule slippages in the testing phase had also occurred and could delay
 implementation if continuous monitoring and oversight is not maintained.

                                   Transition Planning

 Although specifically required, the STRIPES transition plan did not include
 information on system documentation, interfaces, and draft operating schedules. The
 Department project management directive (DOE Order 413.3A), requires that
 transition policies and procedures be addressed as part of the preliminary project
 execution plan. It also requires issuance of a "Project Transition to Operations Plan"
 to define the basis for attaining initial capability or full operating capacity. The
 required Project Transition to Operations Plan should address system documentation,
 training, interfaces, andcdraft operating chedules.l The Organization
Change/Transition Management Plan prepared for STRIPES addressed training in
detail; however, it did not include information on system documentation, interfaces,
and draft operating schedules. Project officials informed us that this information was
contained in several "Project Plan" documents, some of which remained in draft, and
were separate from the Organization Change/Transition Management Plan. However,
as noted in the project management directive, all of these elements should be part of
one comprehensive Project Transition to Operations Plan.

                             System Interfaces/Integration

 Interfaces for the system were identified in accordance with Federal requirements and
 Department mission need. Project officials identified systems that would interface
with STRIPES during normal business and transaction cycles - interactions necessary
 for efficient and reliable data sharing. In particular, the project definition cited a
business need for interfaces with internal and external systems such as STARS and
FedBizOpps (Federal Business Opportunities). Project planning documentation
contained key interface points that were consistent with Department objectives and
Federal requirements. For instance, in the areas of funds certification and
obligation/de-obligation, STRIPES will interface with STARS to verify availability,
reserve and de-reserve, and obligate and de-obligate funds. In addition, key interfaces
were identified for sending synopses, solicitations, modifications, and award notices to
the Federal Business Opportunities system.

An integration issue with STARS -- identified by the project director -- had not yet
been completely resolved and could potentially impact the efficiency of STRIPES
operations. Specifically, a project review of STARS vendor data indicated that many
vendor records do not contain accurate information. This could create efficiency
issues in that, if vendor information in STARS is not accurate, the STRIPES
transaction will be delayed until the vendor information is correct by a member of the
STARS team.

                                   3
                                          Testing

 A test strategy had been developed that was consistent with Department guidance and
 objectives. The Department's development methodology requires that either the
 project team or an independent test team conducts tests to ensure that the system
 performs as expected. To that end, the Department established an objective for
 defining testing strategies and by developing a detailed acceptance test plan and
 schedule. The approach called for users at Department Headquarters and various
 field/site locations to be made available for system, performance, and user acceptance
 testing as required.

Actual testing for STRIPES, however, was not always occurring in accordance with
expectations. Specifically, the October 2004 business case had originally projected
that the acceptance testing phase would take place during February through August
2006. Due to resource issues related to STARS implementation, acceptance planning
and testing was delayed and has only recently been initiated to address issues related
to functionality, data integrity, integration, system performance, and cyber security.
Even though the Department had developed a revised testing plan, some testing
components appeared to be behind schedule. For instance, as of August 23, 2007:

    *   Loading of library documents, scheduled to be completed between July 16,
        2007 and August 31, 2007, was 50% complete;

    *   Creating a user acceptance test schedule, projected for completion by
        September 10, 2007, was 25% complete; and,

    *   Writing draft access control procedures, an effort that was to take place
        between July 23, 2007, and September 4, 2007, was 25% complete.

Unless greater attention or resources are allocated to ensure that testing is meeting
established schedules, implementation of STRIPES could be delayed.

POTENTIAL IMPACTS

Our work up to this point to evaluate the STRIPES system development has not
identified any potential issues which would impact future audits of the Department's
financial statements. The issues discussed above related to transition planning,
interfaces, and testing, could, however, potentially impact decisions relating to
STRIPES development or its operational efficiency.

SUGGESTED ACTIONS

To help ensure an efficient, timely, and orderly implementation, we suggest that the
Chief Financial Officer direct the STRIPES project management team to:

   1. Revise the project transition plan to address system documentation, interfaces,
      and draft operating schedules;

                                   3
      2. Move expeditiously to resolve the vendor data integration issue with STARS;
         and,

      3. Reallocate resources, as necessary, to ensure that future testing of components
         adheres to established schedules.

MANAGEMENT REACTION

Management concurred with the suggested actions and indicated that they would take
action to address them. Since no formal recommendations were made in this report, a
formal response is not required. We appreciate the cooperation of your staff during
this phase of the audit.




                               Rickey . Hass
                               Assistant inspector General
                                 for Financial, Technology, and Corporate Audits
                               Office of Audit Services
                               Office of Inspector General

Attachment

cc:     Director, Office of Management, MA-1
        Chief Information Officer, IM-1
        Chief of Staff
        Team Leader, Audit Liaison, CF-1.2
        Audit Liaison, IM-10
        Audit Liaison, MA-40




                                    4
                                                                            Attachment

                          SCOPE AND METHODOLOGY


 SCOPE AND METHODLOLGY

Fieldwork for Department's Implementation of the Strategic Integrated Procurement
Enterprise System - Transition Planning, Interfaces, and Testing was performed
between July 2007 and September 2007 at Department Headquarters in Germantown,
Maryland. To accomplish the'audit objective, we:

      *   Reviewed applicable laws, regulations, and guidance pertaining to
          information technology, financial management systems, and system
          development and implementation. We also reviewed relevant reports issued
          by the Office of Inspector General and the Government Accountability
          Office;

      *   Reviewed the Government Performanceand Results Act of 1993 and
          determined if performance measures had been established for STRIPES; and,

     *    Held discussions with Department officials and personnel and obtained and
          reviewed relevant documentation relating to development and
          implementation.

 The audit was performed in accordance with generally accepted Government auditing
 standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed significant internal controls and performance
measures under the Government Performanceand Results Act of 1993 regarding
implementation of STRIPES and found that performance measures, objectives and
goals did exist relating to the STRIPES implementation effort. Because our review
was limited, it would not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit. We did not rely on computer-processed
data to accomplish our audit objective.




                                  5
